No.

h-7iw

In The
Supreme Court of the United States

□

ZHI GANG ZHANG,
Petitioner,
v.
DAN RASMUS, AN INDIVIDUAL,
RASMUS LAW OFFICE, LLC;
TIM JAMES, AN INDIVIDUAL,
JAMES LAW, PC;
WILLIAM R. SKOLNICK, AN INDIVIDUAL,
AMY D. JOYCE, AN INDIVIDUAL,
SKOLNICK & SHIFF, P.A.,
Respondents.

On Petition For Writ Of Certiorari
To The Supreme Court of South Dakota

□

PETITION FOR WRIT OF CERTIORARI

□

ZHI GANG ZHANG
2508 Primrose Lane
Aberdeen, SD 57401
(612) 270- 2859
Zhang443@abe.midco.net
Pro Se Petitioner
Pro Se Litigant, Appellant

RECEIVED
DEC-5 2019

\

*»

QUESTIONS PRESENTED
Introduction
Fraud committed by attorneys has been treated
as a component of legal malpractice such as in the
United States Court of Appeals, Third Circuit, in
contrast to other United States district courts. In this
case, the South Dakota Supreme Court treated fraud as
part of legal malpractice by opining that no prejudice
was caused when the trial court denied Petitioner’s
motion to include a separate fraud claim. The practice of
including fraud as a part of a legal malpractice claim in
the instance case and in the Third Circuit permitted the
exoneration of Respondents without evidential review, a
very unlikely acquittal process in other circuit or state
courts for fraud claims.
The first question presented is the following:
Whether differences in the acquittal process
between fraud committed by an attorney and fraud
committed by a non-attorney in some but not all federal

1

and state courts violated the Equal Protection Clause of
the 14th Amendment to the U.S. Constitution.
The second question presented is the following:
Whether a court continuing with legal
proceedings while repeatedly delaying interpreter
approval for a non-native English-speaking pro se
petitioner violated Petitioner’s right to a fair hearing
provided for in the Fifth Amendment of the U.S.
Constitution.

n

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

TABLE OF CONTENTS....
TABLE OF AUTHORITIES

111

RELATED PROCEEDINGS

7

OPINIONS BELOW

8

JURISDICTION

9

vi

CONSTITUTIONAL AND STATUTORY
PROVISIONS

9

STATEMENT OF CASE AND FACTS

10

The Divorce Case.....................................

10

Malpractice Case Against Brown..........

17

Case Against Respondents......................

22

Appeal to South Dakota Supreme Court

32

REASONS FOR GRANTING THE WRIT
On First Question Raised

43
43

1 Lower court decisions are conflicting in how they
approach frauds committed by attorneys among
different courts................................................... 43
2 Including fraud as a component of legal
malpractice has resulted in the exoneration of
attorneys for outright fraud, without performing a
basic preliminary factual review by either the
court or jury.

49
in

3.There is a need for this Court to resolve the
conflict among courts on whether to include
outright fraud committed by attorney into legal
malpractice and stop the constitutional violation.
51
On the Second Question Raised: Fair Hearing ....

57

1. The payment and interpreter granting
procedure is not fully settled at present time.....57
2. The trial court should at least treat all parties
equal if not facilitating Zhang’s effort to obtain
interpreter, rather than hindering the basic
fairness principle in delaying the interpreter use
without convincing excuses..............................

58

3. The Court could use the instance case as a
vehicle to lessen the confusion and injustice that
occurred in this case to eliminate potential
similar unconstitutional occurrences

61

CONCLUSION

62

Counsels for Respondents

63

APPENDIX

64

Appellate Court Opinion..........................................

64

Order Denying Petition for Rehearing # 28524.....

94

Relevant Fifth Judicial Court Judgments.............

95

1. Dismissal of Motion to Amend Complaint......

95

2. Order Granting James’ Motion.........................

95

3. Order Granting Rasmus’ Summary Judgment
IV

Motion

............................................................. 95

4. Order Granting Skolnick’s Summary Judgment
Motion

............................................................. 96

5. Memorandum Decision........................................ 96
CONSTITUTIONAL AND STATUTORY
PROVISIONS

............................................................ 104

EXCERPTS OF RELATED DOCUMENTS................ 108
First hearing (May 31, 2017).................................. 108
Second Hearing (October 06, 2017)........................ 113
Third Hearing (December 13, 2017)....................... 115
Zhang’s Affidavit on Expert Issue.......................... 123
Zhang’s docket letter to presiding judge................ 142
Motion for Leave to Amend.................................... 144
Zhang’s Amend on complaint................................. 145
Zhang’s Opposing to Rasmus SJ............................ 148
Excerpt of Appellant’s Brief.................................... 152
Excerpt of Appellant’s Reply Brief......................... 155
OTHER AUTHORITIES............................................... 159
ABA Resolution (12M113)....................................... 159
Language Access in State Courts (Manual).......... 162

SDCL § 16-19-34.............................................. 165
N. J. Stat. Ann. § 2A:53A—27.............................. 165

v

TABLE OF AUTHORITIES
CASES
Labovitz v. Hopkinson, 271 Ga. 330 (1999)

44

Noske v. Friedberg, 713 N.W.2d 866 (2006)

48

Nuveen Municipal Trust v. Withumsmith Brown P.C., 752 F.3d 600
(2014)

45, 47, 49, 50

Sheehy v. New Century Mortg. Corp., 690 F.Supp.2d 51 (2010)

44

Smith v. Morris, Manning & Martin, LLP, 264 Ga. App. 24 (2003)44
U.S. u. Mayans, 17 F.3d 1174 (1994)

60

STATUTES
28 U.S. C § 1827

157

N.J. Stat. Ann. § 2A:53A-27

45, 165

SDCL § 16-19-34

42, 55, 165

Vl

RELATED PROCEEDINGS
The Circuit Court of the Fifth Judicial Circuit,
Brown County, South Dakota, Zhi Gang Zhang v. Ling
Ma, Div. 09-887, Stipulation and Judgment and Decree
of Divorce, April 21, 2011.
The Circuit Court of the Fifth Judicial Circuit,
Brown County, South Dakota, Dr. Zhi Gang Zhang v.
Jodi L. Brown individually and Brown Law Firm, P.C.,
Civ. 13-329, Judgment of Dismissal, November 4, 2013.
The Circuit Court of the Fifth Judicial Circuit
Brown County, South Dakota, Zhi Gang Zhang v. Dan
Rasmus, an individual, Rasmus Law Office, LLC; Tim
James, an individual, James Law, PC, William R.
Skolnick an individual, Amy D. Joyce, an individual
Skolnick & Shiff, P.A, Civ. 16-446, Judgment for
Defendants William R. Skolnick, Amy D. Joyce and
Skolnick & Shiff, P.A, January 18, 2018.
The Supreme Court of the State of South Dakota,
Zhi Gang Zhang v. Dan Rasmus, an individual, Rasmus
7

Law Office, LLC; Tim James, an individual, James Law,
PC, William R. Skolnick an individual, Amy D. Joyce,
an individual Skolnick & Shiff, P.A, #28524, 2019 S.D.
46, Reversed in Part and Affirmed in Part, July 24,
2019.
The Supreme Court of the State of South Dakota,
Zhi Gang Zhang v. Dan Rasmus, an individual, Rasmus
Law Office, LLC; Tim James, an individual, James Law,
PC, William R. Skolnick an individual, Amy D. Joyce,
an individual Skolnick & Shiff, P.A, Order Denying
Petition for Rehearing# 28524, September 4, 2019.
OPINIONS BELOW
The Opinion of The Supreme Court of the State of
South Dakota is reported at 932 N.W 2.d 153, 2019 S.D.
46 and is attached at Apn. 64. The Supreme Court of
the State of South Dakota: Order Denying Petition for
Rehearing # 28524 is unpublished and is attached at
Apn. 94.
The orders of the Circuit Court of the Fifth
8

Judicial Circuit, Brown County, South Dakota, granting
Respondents’ motions for summary judgment are
unpublished and are attached at Apn. 95 and 96.
JURISDICTION
The Supreme Court of the State of South Dakota
issued its Opinion on July 24, 2019. Petitioner’s
rehearing petition was timely filed on August 13, 2019
and was denied on September 4, 2019. This Court has
jurisdiction pursuant to 28 U.S.C. §.1257.
CONSTITUTIONAL AND STATUTORY
PROVISIONS
Section 1 of the 14th Amendment to the United
States Constitution provides as follows:
All persons born or naturalized in
the United States, and subject to the
jurisdiction thereof, are citizens of the
United States and of the state wherein they
reside. No state shall make or enforce any
law which shall abridge the privileges or
immunities of citizens of the United States;
nor shall any state deprive any person of
life, liberty, or property, without due
process of law; nor deny to any person
within its jurisdiction the equal protection
of the laws.
9

Amendment Five to the United States
Constitution provides as follows:
No person shall be held to answer for
a capital, or otherwise infamous crime,
unless on a presentment or indictment of a
grand jury, except in cases arising in the
land or naval forces, or in the militia, when
in actual service in time of war or public
danger; nor shall any person be subject for
the same offense to be twice put in jeopardy
of life or limb; nor shall be compelled in any
criminal case to be a witness against
himself, nor be deprived of life, liberty, or
property, without due process of law; nor
shall private property be taken for public
use, without just compensation.
U.S. Code § 1827 (d)(1), (j) is attached as Apn 105.

STATEMENT OF CASE AND FACTS
The factual review involves three sequential
circuit court cases and an appeal to the South Dakota
Supreme Court.
The Divorce Case
Zhang filed for divorce on September 25, 2009,
through attorney King. Attorney Brown took over the
divorce case on November 6, 2009. Prior to when Brown
10

took over, there were some discussions privately
between Zhang and King regarding temporary alimony,
but King was not involved in the temporary alimony
hearing or its final preparation. Brown and Zhang
discussed a temporary alimony offer based on Zhang’s
family 10-year spending history. A temporary alimony
hearing was held on November 12, 2009, mostly in
chambers, followed by an open court hearing. Brown
told Zhang that she provided her temporary alimony
proposal along with the spending history summary to
the court during the temporary alimony hearing. Brown
informed Zhang that Judge Van Wald decided the
temporary alimony amount after the meeting in
chambers and that, due to time constraints, the
submitted documents were not used or referenced by the
court. However, during a July 27, 2010, hearing for
cause, Judge Van Wald read a portion of an e-mail from
Zhang to his former attorney, King, as proof that Zhang
had made an agreement with court on November 12,

11

2009, to pay the temporary alimony amount. Judge Van
Wald stated “doctor said” as proof of the agreement
made; however, this court-produced proof was not in the
open court hearing transcript and Zhang had never had
the opportunity to be in chambers to make the quoted
statement to the court. Furthermore, Zhang’s e-mail to
King should be a privileged attorney-client
communication. The e-mail was never discussed
between Brown and Zhang for any reason, nor was the
privileged e-mail ever supplied to the court for any
purpose as far as Zhang knew. By following Brown’s
explanation and advice on temporary alimony, Zhang
incurred additional expenditures attempting to
readdress the temporary alimony. On October 4, 2010,
after a whole day spent in a temporary alimony
modification hearing, nothing was achieved and neither
the modification hearing nor the temporary alimony
modification were completed until the end of the divorce
case. Brown did not provide any explanation as to how
12

Zhang’s communication with King got into court’s hand
to be used as the basis for the temporary alimony
determination made during the chambers meeting,
which Brown attended not King. Zhang felt that Brown
had deceived him on the temporary alimony
determination and on what had occurred in chambers,
especially because there were more expenditures for a
temporary alimony modification hearing that was never
finished.
The process and information used to determine
temporary alimony was crucial, because permanent
alimony was later determined based solely on the
temporary alimony, without reference made to any real
historical accounting data or financial record-based
need.
Zhang’s ex-wife’s team compiled a three-year
summary accounting by an accountant, Jin, to be used
for alimony determination reference. In describing the
only one summary accounting, Oliver alleged
13

contradictorily during court proceedings that the
accounting was a spending summary of Zhang’s family
of four; three people’s spending accounting; Zhang’s exwife’s spending only; and for spending that happened in
Minnesota only. In actuality, the summary accounting
used by Oliver to exhibit the financial need of his client
included Zhang’s South Dakota business account, which
was never used for family spending; a credit card of
Zhang’s ownership only; and other South Dakota
accounts.
. The inaccuracy of the three-year summary
accounting was exposed during Jin’s deposition. Zhang’s
ex-wife’s team hired Johnson, a financial planner, as an
expert witness to further spin on the summary
accounting that Oliver had provided contradicting
explanations of. Knowing the summary accounting
could not be used for three years as originally compiled
for faulty accounts inclusions and lacking any credibility
in accounts selection exposed from Jin’s deposition,
14

Johnson arbitrarily chose only eight months of
temporary alimony spending history on which to base
her calculations and recommendations. Although only
eight months of alimony spending history were used,
Johnson testified that the alimony spending history was
a reliable accounting of three years of accustomed
spending history for three people in Minnesota only by
following Oliver’s statement made to court. During
Johnson’s testimony, Oliver made another statement
that the same summary accounting only included the
accounts used by Ling Ma in Minneapolis in contrary to
facts. That the summary accounting even could not tell
for sure how many personals spending was included and
very skewed alimony spending span was used as a
reliable accounting of accustomed spending history for
only one person (Zhang’s ex-wife) in Johnson’s expert’s
calculation and recommendation. The court made the
permanent alimony determination based on the
temporary alimony spending period and Johnson’s
15

testimony and calculation. Thus, the process and time
spent on the alimony determination, the main
contention of the divorce, became a sham legal
proceeding from day one of the temporary alimony
determination as everything was decided based on
temporary alimony without clarifying the number of
people used to determine the calculation and without
any reference to real relevant information or historical
need bases as required by law.
Zhang consulted Brown for redress of these
offenses immediately after the bench trial. Brown misled
Zhang to sue the defending attorney and experts
personally, rather than filing for a new trial based on
frauds committed by the defending team or filing an
appeal. As an attorney, Brown should have known that
suing the defense attorney and experts was not a
feasible lawful remedy, yet she misguided Zhang at that
time to pursue the impossible. In trying to sue the
defending team by following Brown’s advice, Zhang

16

incurred more unnecessary expenditures, consulting
several attorneys, who all informed Zhang that a
lawsuit against the expert witnesses or his ex-wife’s
legal team would be unfeasible. While consulting these
attorneys, Zhang’s critical time in which he could have
filed for a retrial or an appeal had passed.
Malpractice Case Against Brown
After Zhang discovered that he had been deceived
by Brown, not only regarding the temporary alimony
issue, but also by her advice to sue his ex-wife’s legal
team, which caused him to miss his opportunity to file
for a retrial or an appeal, Zhang retained attorney
James to file a malpractice action against Brown. A
divorce case summary with 3,224 items of supporting
documents, including e-mails that Brown misguided
Zhang to sue the defending teams, was supplied to
James for the filing preparation,1 Those documents

The same summary and computer files were provided to
the circuit court on June 30, 2013, in a CD format.

17

were transferred to other respondents later.
James retained attorney Fox as a potential expert
witness on September 21, 2012. Fox showed
unwillingness to testify against her fellow attorney by
repeatedly delaying her reply. Fox made a no merit
conclusion for Brown’s case without providing a single
sentence in her report on Zhang’s claim of Brown’s
deception on temporary alimony and misguided
recommendation of an impossible lawsuit of his ex-wife’s
defense team. James explained the unique situation of
attorneys potentially meeting each other in the future
due to the small South Dakota bar to Zhang and
introduced Zhang to Minnesota attorney Rasmus, who
Zhang retained as primary counsel. James then acted
as local counsel for Rasmus.
Due to a conflict regarding assigned Judge Kean,
Rasmus suggested and arranged to transfer the twomonth old case to another “experienced” Minnesota
group, Skolnick and Joyce. However, no counsel

18

substitution paperwork was filed with the circuit court.
Unknown to Zhang at the time, Respondent Joyce
failed to find an attorney to sponsor their firm’s pro hac
vice admission, thus Skolnick and Joyce were never
qualified to represent Zhang in South Dakota.
Meanwhile, Rasmus and James simply ceased their
counsel function without obtaining permission from the
circuit court or filing any counsel substitution
paperwork. During this time, Brown’s attorney filed a
motion for Judgment on the Pleadings, followed by a 156-11(b) Notice. On October 10, 2013, a Notice for
Hearing of Motion for Judgment, scheduled for
November 4, 2013, was mailed to both James and
Rasmus.
None of the Respondents tried to contact Zhang to
discuss the upcoming summary judgment hearing until
October 18, 2013. Skolnick mailed Zhang a letter on
October 18 stating that their firm was declining to
represent Zhang, alleging that there was no merit upon
19

which to file a malpractice case against Brown.
Although each Respondent alleged that there
were no merits in the case against Brown, no
Respondent ever challenged the material facts relating
to Oliver’s fraud on the court, Brown’s deception
regarding the temporary alimony determination process,
or Brown’s misguidance in advising Zhang to sue
defending team. Before the end of Brown’s case, Zhang
was never informed by the Skolnick group regarding
their failure to get pro hac vice admission, which would
be a more realistic reason for their departure from
Zhang’s action against Brown. Otherwise, Zhang would
have discovered that the Skolnick group was not
qualified to represent him during the November 4, 2013,
hearing.
After the Skolnick group’s letter declining to
represent Zhang, Rasmus and James filed a counsel
withdrawal motion on October 22, 2013, with no reason
mentioned, appearing to attempt to conceal their failure
20

to perform counsel of record duties for more than a
month while the Skolnick Respondents were not
qualified to represent Zhang.
Judge Keen had insisted on attorney appearance
for the November 4th hearing.2 Judge Keen
acknowledged that none of the Respondents filed a
document in opposition to Brown’s motion and held
Rasmus and James as counsel of record3 until the end of
Brown’s malpractice case on October 31, 2017 (fn2).

2 Judge Kean (October 31, 2013 e-mail to Rasmus and
James): “I — planned on coming [to Aberdeen] due to the Motion for
Judgment on the Pleadings that had been filed. — I do not really
care as to which attorney appears, but, one of you should unless the
hearing is cancelled due to the dismissal.”
3 Judge Kean (October 25, 2013) “Although Mr. James has
filed a motion to withdrawn, it does [not] automatically mean that
the motion is granted. —. In addition, nothing has been done to
address the motion for judgment on the pleadings which preceded
all this recent flurry about who was or was not representing Dr.
Zhang.”

21

Zhang’s malpractice case against Brown was
terminated, because Respondents left Zhang without the
assistance of counsel to face the impossible task of
preparing for a summary judgment hearing in four days
without any documents filed in the circuit court to
support his case. Under the guidance of Rasmus, Zhang
had to sign the “Stipulation of Dismissal with Prejudice”
as a pro se, even though the document said that the
agreement was “made through counsel” and the
stipulation was the product of Rasmus working with
Brown’s attorney without Zhang’s involvement.4
Case Against Respondents
Due to his lack of legal knowledge and his
4 Zhang did not voluntarily terminate the Brown case,
contrary to the South Dakota Supreme Court’s Opinion. ([1J6]
Opinion Apn. 67). In opposing Rasmus’ summary judgment motion,
Zhang attached facts discussing the termination of the case against
Brown. The facts were resubmitted in Zhang’s rehearing petition.
The South Dakota Supreme Court was silent regarding all facts
provided and discussion made on this issue

22

deficiency in English, especially his deficiency in legal
professional English, Zhang contacted several attorneys
in South Dakota before commencing pro se with his
malpractice case against Respondents. In 2015, Zhang
had hired attorney Johnson to assist Zhang in correcting
the alimony in Zhang’s divorce case, but was
unsuccessful, because current law does not allow
alimony changes if circumstances have not changed.
Attorney Johnson was not willing to address Brown’s
deception regarding temporary alimony or her
misguidance in advising Zhang to sue his ex-wife’s
defending team, nor was he willing to address Oliver’s
fraud on the court, even though Johnson acknowledged
to Zhang that the evidence that Zhang had provided in
revealing those frauds was factual during Johnson’s
involvement from 2015 to 2016. Zhang included his
experience with Johnson along with Zhang’s previous
encounters with other attorneys, including attorney Fox
(whom Zhang had retained as a potential expert
23

witness), into his affidavit to the circuit court to report
the reality of attorneys’ frauds and how other attorneys
avoided revealing their peers’ frauds in South Dakota
with factual evidences attached. (Apn.123).
To fully understand and to make proper responses
to Respondents’ legal arguments, Zhang requested the
use of an interpreter. Zhang worked with the circuit
court early on and included an interpreter request in the
caption of his complaint.
Under the direction of the court administrator,
Zhang pursued all potential interpreters. Unfortunately,
some of the interpreters provided by the court could
barely speak English. Zhang attempted to resolve the
interpreter issue prior to any court hearing by working
with Respondents and the circuit court. The court
administrator had requested Zhang to pay for the
interpreter cost and Zhang agreed to pay for the
interpreter, including the interpreter’s travel costs. But
Zhang’s efforts to obtain an interpreter before any
24

hearings were frustrated due to back and forth
discussions, first with the court administrator, then in
repeated filings with the court. Prior to the first
hearing, Zhang filed an official letter to presiding Judge
Myren on May 23, 2017, with some of his
communications with court administrators attached, to
discuss his previous efforts and candidacies for
interpreter. Zhang found two court certified interpreters
in Minnesota but none in South Dakota. Zhang had
contacted one of the Minnesota certified interpreters
and expressed willingness to work with the other
interpreter if the court or Respondents desired. Zhang
further stated in the letter,
“Any verbal court proceeding to let plaintiff
acting as pro se to argue and think in a
second language with all those legal
professional defendants will be an obvious
prejudice to plaintiff because plaintiff
[Zhang] started to learn English from his
college time and plaintiff had no single day
of college education in a English speaking
country.”
(Apn.142).
25

Zhang had arranged certified interpreter Zhou
from Minnesota, but had to cancel his services for each
of the two initial hearings (there were only three
hearings for the whole proceeding) while waiting for the
circuit court’s approval.
The first hearing happened on May 31, 2017.
Regarding the interpreter, the following interaction
between Zhang and the judge occurred:
“MR. ZHANG: He’s certified. Also, plaintiff has
made clear, to be fair, there is a two, there are
two certified interpreters in Minnesota. I did not
contact the other one that, the defendants
screened the other one, just to say, to be fair. —
plaintiff willing to really work with anyone just so
long as appropriate.
THE COURT: The defendants don’t need to
approve your interpreter. Only the Court — all
the interpreter has to do is meet the Court’s
requirements. —"
(Apn. 109-110)
After the hearing, Zhang had to research the
meaning of some of the words used by legal
professionals, such as moot, etc., by reading the hearing
transcript, because he did not fully understand the
26

meaning of the words at the time of the hearing.
Multiple important motions were heard on
October 6, 2017, on the second hearing including
Skolnick’s motion to dismiss and alternative motion for
summary judgment, Zhang’s motion to compel
compliance with discovery rules, Zhang’s motion for
interpreter use, Zhang’s motion to amend his complaint,
and Zhang’s motion seeking punitive damages.
Zhang’s motion for interpreter use was finally
approved on October 6, 2010, for future hearing use.
The court stated that the reason for its delay and the
two hearings that took place prior to the interpreter
approval was because an official hearing needed for
interpreter approval (Apn.113). In contrast, Respondent
James’ summary judgment motion was ruled upon and
granted in the form of a memorandum decision, without
an official hearing. (Apn.96). Zhang challenged the
court’s repeated delay regarding interpreter approval
and related potential prejudice during the interpreter
27

approval hearing. Zhang argued that the results of the
hearings without an interpreter present should have at
best questionable validity, because Zhang was
prejudiced by the court without any basic attempt to
obtain minimum equality for Zhang in a verbal court
proceeding: “I had to cancel his use today. So anything
caused or to this from this hearing, and I think plaintiff
has a right to clarify this because the delay of
interpreter use.” (Apn. 113-114).
Zhang’s only attempt to amend his complaint
(with pretrial conference more than three months away
- pretrial conference could be set after January 15, 2018
- and no oppositional motion made by Respondents) was
denied on October 6, 2017, solely because “[w]e are
significantly [far] along in the case[.]”(Apn. 114).
Even though the case has been ten months from
the filing, due to lacking Respondents cooperation in the
discovery process not much progress was achieved by
October 6, 2017, As matter of fact, there are motions for
28

compel filed and heard on the same day and it had taken
the circuit court ten months just to grant Zhang’s
interpreter use. Zhang made his objection on the court’s
denial of his motion in the amendment of his complaint.
Rasmus’ declares in his summary judgment
motion filing “There is no way that a jury could have
determined, without the aid of an expert, whether or not
there was malpractice or whether there were damages
proximately cause by that malpractice.” (Apn.85 fn 4).
Even though Rasmus made such a general statement to
obtain summary judgment, Rasmus failed to identify or
report to the circuit court any evidential fact regarding
Brown deceiving Zhang regarding temporary alimony,
misguiding Zhang to sue Zhang’s ex-wife’s defense team,
and the related unnecessary expenditures paid by Zhang
that should not be treated as frank simple fraud or
would need expert witness testimony in order to be
understood by a lay person.
Zhang filed his resistance documents to Rasmus’
29

summary judgment .motion according to the
requirements of SDCL 15-6-56 (c). Additionally, Zhang
included extensive briefing and cited multiple cases that
held that expert witnesses weren’t required (Apn. 109)
to prosecute a fraud claim, which is a form of intentional
tort, and that set out the lay person standard exception
to the expert witness mandate for legal malpractice
proceedings.
During Rasmus’ summary judgment motion
hearing, Zhang verbally restated that fraud does not
need an expert witness for prosecution and reiterated
the lay person exception to the expert witness
requirement (Apn. 118). The circuit court granted
Rasmus’ summary judgment motion without any
preliminary factual review for the lay person exception
to the expert witness mandate and without considering
whether a fraud claim should be included with legal
malpractice cases.
Even though Brown was not a defendant in
30

Respondents’ case, during the Rasmus summary
judgment hearing, Zhang made adequate showing of
Brown’s deception on the alimony issue, the sham legal
process plus Oliver’s fraud on the court, and related
financial losses that Zhang had incurred due to Brown’s
deception, because Brown’s case is the causation for
Respondents’ case. Zhang’s “showing” was ruled as
irrelevant by the circuit court. (Apn.118). Zhang
repeated the “showing” at the end of the same hearing,
/

mentioning frauds committed by both Brown and
Respondents. (Apn.120).5
The malpractice case against Respondents was
terminated when the circuit court granted all but one
summary judgment motion, which was withdrawn by
Respondent Rasmus after Zhang filed a Rule 11 (b)
notice.

5 In contrast to the South Dakota Supreme Court’s
conclusion that Zhang made no “showing” in Brown’s case. (Apn.
81).

31

Appeal to South Dakota Supreme Court
Zhang timely filed an appeal to the South Dakota
Supreme Court. The South Dakota Supreme Court
issued its opinion on July 24, 2019, in which the court
reversed the circuit court’s dismissal of Skolnick based
on lack of personal jurisdiction but affirmed the
remainder of the circuit court’s decision. Zhang filed a
rehearing petition, pointing out other South Dakota
Supreme Court opinions that made direct contradiction
to the factual evidence supplied to the circuit court since
it was a de novo review on summary judgment motions
granted by the circuit court. Zhang’s petition for
rehearing was denied on September 4, 2019.
The South Dakota Supreme Court dodged factual
conflict by making two statements in different locations
of the opinion to confirm James’ summary judgment
motion. Appellate Court stated,

—- The court

eventually allowed Rasmus and James to withdraw”
(Apn. 66); “[If 15.] James moved for summary judgment
32

as well, claiming the transfer of representation to
Skolnick removed any duty he owed to Zhang. The
circuit court agreed and granted James summary
judgment.” (Apn. 72).
The relevant facts in the time period from when
the Skolnick group agreed to take over to when the
Brown case was terminated include the following:
James’ motion for withdrawal made on October 24,
2013, Judge Kean held James as counsel of record on
October 31,2013; retroactive court order released James
from counsel duty on October 25, 2013; circuit court
artificially decided James’ counsel ending date was
September 18, 2013, to grant James’ summary judgment
motion contradicting to Judge Kean’s court order;
Rasmus, sponsored by James, would be an illegal
counsel of record for his staying until at least October
25, 2017, in South Dakota Court without James’
sponsorship. Obviously, a September 18, 2013,
termination date for James as decided by the circuit
33

court would be direct proof that James had deserted his
co-counsel duty. Zhang included the above facts in his
appellant’s brief.
The South Dakota Supreme Court made Zhang’s
fraud claim and Zhang’s evidential facts of Brown’s
deception and misguidance, plus Oliver’s fraud on the
court, disappear by making the following statements in
the opinion.
“There may well be disputed facts associated with
Zhang’s divorce in the sense that he disagrees
with the testimony provided by certain expert
witnesses, or statements of his ex- wife’s attorney,
or even the determination of the facts by the
court. However, none of these disputes are
material to his malpractice claims in the absence
of any evidence that Brown acted negligently”
Apn. 86.
What should have been a determination of who
provided more reliable factual evidence in the legal
proceeding became a calculation of the number of people
who claimed to have found no support: “Outside of
Zhang’s own conclusory allegations, neither James,
Skolnick, nor a consulting legal expert have found
34

support for his claims that Brown committed
malpractice.” (Apn. 85)
It has been acknowledged by both courts and all
involved parties that proving the case against Brown is
the core to the whole dispute including the Respondents’
case.
The South Dakota Supreme Court opined that,
[i]n order to advance his current malpractice claims
against the Appellees, Zhang must establish a colorable
claim of negligence against Brown. The undisputed
material facts contained in the record establish,
however, that he is unable to make this predicate
showing” (Apn. 81).
South Dakota Supreme Court ignored repeated
such “showing” that Zhang had, even the ones made
during his resistance to Rasmus’s summary judgement
motion filing and the related hearing on Brown’s
deception, etc. To establish a colorable claim, Zhang
attached 120 pages of factual documents to his
35

resistance filing to Rasmus’ summary judgment motion
not to mention that Zhang had provided to the circuit
court a 77 page summary with numerous supporting
written documents in the CD mentioned in fn. 1 The
only thing Zhang did not do was limit his claim to
negligence only, but he made multiple and broader
claims in addition to a legal malpractice claim in
Respondents’ case.
The South Dakota Supreme Court opinion
regarding Respondents’ motion for summary judgment
(Apn.79-86) restricted legal malpractice to negligence or
error and professional standard only. The court’s opinion
did not mention what to do for the facts presented in
Brown’s and Respondents’ case regarding Brown’s
deception on alimony determination and misguiding
Zhang to sue the defense team.
In the malpractice case against Respondents,
Zhang had tried to add a fraud complaint in order to
have fraud properly prosecuted and was denied by the
36

circuit court. The South Dakota Supreme Court opined
that “[t]he circuit court’s decision to deny Zhang’s
motion to amend his complaint to include a fraud claim
cannot serve as a basis for reversal since it was based
upon Skolnick’s jurisdictional claim”. The South Dakota
Supreme Court’s opinion could not be supported by
either the contents of Zhang’s complaint, nor by the
circuit court’s decision. Zhang’s amended complaint
(Apn. 145) stated that “defendants Skolnick[’]s chose to
willfully cheat the Plaintiff by alleging that Civ. 13-329
[Brown’s case] would be unsuccessful,” (i.d.) and other
claims on Skolnick’s fraud bear no relationship with
Skolnick’s jurisdictional claim. The purpose explained
in Zhang’s motion to amend his complaint was to meet
the punitive damage requirement; that stated purpose
had no correlation to Skolnick’s jurisdiction claim (Apn.
144). The circuit court’s denial was based solely on the
court’s statement that “[w]e are significantly [far] along
in the case[.]” (Apn. 114), which has nothing to do with
37

Skolnick’s jurisdictional claim.
In Zhang’s Appellant’s Brief number one, Zhang
clearly asked the South Dakota Supreme Court on the
possibility of partial compensation by adjudicating the
fraud claim alone and the prejudicial effect of not
allowing a fraud claim (Apn. 152). If a fraud claim had
been allowed, Zhang would have a viable trial in which a
jury could evaluate his proffered evidence, versus no
trial at all. The difference is not as trivial as the court
alleged in its opinion.
Regarding factual evidence, the South Dakota
Supreme Court did not address Zhang’s assertion that it
was error to grant Rasmus’ summary judgment motion
without any evidential review of the briefed exceptions
to the expert witness mandate in legal malpractice
cases. Despite the huge volume of evidence supplied by
Zhang, the court opined that “he [Zhang] lacks critical
expert testimony” (Apn. 92 ) to justify the circuit court’s
ruling on Rasmus’ summary judgment motion without
38

any evidential review and ignoring Zhang’s arguments
on the lay person standard exception or his argument
that fraud has no professional standard to compare with
since it is not a professional activity.
Zhang’s affidavit on the expert witness issue in
South Dakota as an effort to get the candidacy of experts
expanded was skewedly characterized by the South
Dakota Supreme Court by using only one tenth of the
contents of Zhang’s affidavit to characterize the
document:
“Zhang filed an affidavit on the deadline [date for
providing expert opinion] in which he stated he
had ‘enough written evidence to prove his case[.]’
He further stated that the facts and ‘evidence to
be presented at trial will show the acts and
omissions so clearly that a layman could
reasonably conclude that they were negligent
without the aid of expert testimony.’”
(Apn. 70)
The court failed to mention the other nine tenths
of Zhang’s affidavit, which elaborated Zhang’s
experiences with attorneys from South Dakota and the
small-bar phenomena in South Dakota. (Apn. 123-141)
39

Additionally, Zhang used evidential facts that
demonstrated that an attorney had committed fraud on
the court. Zhang’s affidavit revealed that, in South
Dakota, attorneys chose to use avoidance, excuses,
subterfuge, and even abandonment of their clients
rather than performing their professional and ethical
duties; no legal experts involved were willing to reveal
even fraud on the court of their peer, not to mention
testifying against their peer. Zhang stated, “The fact
that legal experts like Attorney Harvey Oliver can
perpetrate ‘fraud on the Court’ illustrates the fragility
and danger of injustice in our current legal system.”
(Apn. 137) Even though Zhang’s filing was made timely,
the circuit court did not mention expanding the expert
pool as a solution to the small-bar phenomena. Nor did
the South Dakota Supreme Court address the solution,
even when directly asked by Zhang to expand the expert
witness pool to nationwide. (Apn.153 and 155-156).
Regarding the delayed interpreter approval

40

process briefed by Zhang on appeal, the South Dakota
Supreme Court does not think Zhang was prejudiced or
unfairly treated by the circuit court, and, in its opinion,
the court even blamed Zhang for the interpreter delay
(Apn.91),even though Zhang was required to attend two
hearings to get an approval for interpreter use in
addition to his previous endeavors with the court
administrator. In contrast, James’ summary judgment
motion was granted by the circuit court a without single
hearing. Such drastic difference was briefed by Zhang in
his appellant’s brief and was ignored by the South
Dakota Supreme Court.
The fact that Zhang had followed Brown’s and
Respondents’ guidance, incurring additional
expenditures, is a direct showing of Zhang’s reliance
element for his fraud claim, which is in direct
contradiction to the South Dakota Supreme Court’s no
reliance opinion. (Apn.89).
In his rehearing petition, Zhang questioned why,
41

throughout the different actions, no Respondent or court
mentioned attorneys’ deception or the fraud issue. For
court procedural doctrine, the unopposed disputed
material facts should have been admitted. Zhang then
found SDCL § 16-19-34 (South Dakota Attorney Deceit
Statutes) on attorney’s fraud, thus realizing what other
attorneys, even the courts, are avoiding. Zhang included
his findings into his rehearing petition.
The prevalence of the mentioned avoidance had
emboldened attorneys to make fraudulent statement
without fear of any consequences, such as in the case
against Respondents, when Rasmus made two affidavits
with directly contradicting facts. Even though Zhang
revealed Rasmus’ untruthful affidavits by mentioning
the contradicting facts, neither the circuit court nor the
South Dakota Supreme Court addressed the issue.
This filing was not for factual review; additional
statements made by the South Dakota Supreme Court
in contradicting the facts in the court record can be
42

elaborated during the merit phase briefing as needed.
Some of the issues were already mentioned in Zhang’s
Petition for Rehearing filed in the South Dakota
Supreme Court.
REASONS FOR GRANTING THE WRIT
On First Question Raised
1.

Lower court decisions are conflicting in how

they approach frauds committed by attorneys
among different courts
There are conflicts shown by both federal circuit
courts and state courts on whether to include fraud into
the legal malpractice category when prosecuting fraud
committed by attorneys during their professional
activity.
Fraud: A knowing misrepresentation or knowing
concealment of a material fact made to induce another
to act to his or her detriment. Fraud is usu. a tort, but in
some cases it may be a crime. Black’s Law Dictionary
10th ed. Malpractice: An instance of negligence or
43

incompetence on the part of a professional (i.d.).
The majority of federal and state courts would
distinguish fraud from a legal malpractice claim during
proceedings, as shown in Sheehy v. New Century Mortg.
Corp., 690 F.Supp.2d 51, 64 (2010) (“Therefore, where,
as here, the issue is whether an attorney breached her
fiduciary duty by engaging in outright fraud in
connection with a real estate transaction, plaintiff need
not provide expert testimony to survive summary
judgment on this claim”) and Smith v. Morris, Manning
& Martin, LLP, 264 Ga. App. 24,27 (2003) (“[U]nder
Georgia law, the affidavit requirement in OCGA § 9-119.1 ‘is applicable only to those professional malpractice
actions alleging professional negligence.’ Claims based
on a professional's alleged intentional conduct do not
require an expert affidavit.” (quoting Labovitz v.
Hopkinson, 271 Ga. 330, 334(3), 337 (1999)).
The United States Court of Appeals, Third
Circuit, affirmed a lower court’s denial decision on a

44

fraud claim based solely on the fact that no expert in the
legal field provided an affidavit against their fellow
attorney in the case. Nuveen Municipal Trust v.
Withumsmith Brown P.C., 752 F.3d 600 (2014). The
Third Circuit asked for clarification from the New
Jersey Supreme Court by filing a petition for
certification on N.J. Stat. Ann. § 2A:53A—27 and the
petition was denied. The Third Circuit confirmed the
case as follows: “In light of the New Jersey Supreme
Court’s denial of our petition for certification, we decide
the question based on our best understanding of how the
New Jersey Supreme Court would rule.” Id. The Third
Circuit clearly stated that the Nuveen Municipal Trust
complaint should be categorized as

an action alleging

an intentional tort, such as common law fraud or aiding
and abetting common law fraud, which relates to alleged
professional malpractice or negligence but does not
require proof of malpractice or negligence [.]” Id at 602.
The same situation has occurred in Petitioner

45

Zhang’s case: The outright fraud committed by Brown
by deceiving Zhang as stated in this petition was
included into malpractice because Respondent Rasmus
made a comprehensive allegation of “no expert, no case,”
and the circuit court then granted the summary
judgment motion based on this general allegation
without distinguishing malpractice from the fraud
claim. The case was affirmed by the South Dakota
Supreme Court because Zhang “lacks critical expert
testimony” to prove the evidential facts provided to
prove his fraud claim.
Both the Third Circuit and the South Dakota
Supreme Court had limited their statements for
confirmation of a lower court’s decision on malpractice to
negligence only and left fraud out. But when those two
courts confirmed decisions from the lower courts, the
affirmation decision included fraud as a component of
malpractice, because the initial denial of the cases were
made under the assumption that fraud was a part of

46

malpractice.
The South Dakota Supreme Court’s opinion
indicated that the denial of the malpractice claims
which ended the whole proceeding would have no
difference if the fraud claim was allowed to be
considered separately from malpractice. Zhang asked
the South Dakota Supreme Court directly in his
Appellant’s Brief whether the fraud should be allowed to
be considered separately. Thus, from the South Dakota
Supreme Court’s opinion of confirmation, the fraud was
included as a component of malpractice. In Nuveen
Municipal Trust, the Third Circuit had clearly indicated
the inclusion of the fraud into malpractice in the expert
witness requirement process (N.J. Stat. Ann. § 2A:53A27):

“Contrary to Nuveen’s contentions, case law from
lower New Jersey courts comports with Couri and
supports the conclusion that the monetary
recovery sought by Nuveen is of the type that
triggers the AOM Statute.
“claim that [a
party’s] alleged malpractice resulted in money
damages was contemplated by the Legislature as
a claim for ‘property damage’ under the [AOM]
47

statute.” — we conclude that a claim against an
attorney for alleged malpractice is a claim for
property damage within the legislative intent and
plain meaning of the statute.
752 F.3d 600, 603,604 (internal citation omitted)
The Minnesota Supreme Court differentiated
fraud from malpractice:
“Fraud is an intentional act that ‘is distinguished
from negligence by the element of scienter
required. — There is no doubt of fraudulent intent
when the misrepresenter knows or believes the
matter is not as he or she represents it to be.
“On the other hand, professional negligence
requires proof of a negligent act that departs from
the standard of care. — The very fact that an act
is characterized as negligent indicates that harm
to another as the result of it was neither foreseen
nor intended, although a reasonable man would
have foreseen danger to others because of it and
would have adopted another course of conduct.
“Further, claims of negligence and fraud involve
different defenses and measures of damages. For
example, a contributory-negligence defense is a
proper offset to liability for an unintentional act,
but is not an adequate defense for intentional
acts. — And the measure of damages for fraud is
out-of-pocket losses, while negligence damages
are compensatory, which is a broader measure
including general and special damages, and outof-pocket and future losses.”
Noske v. Friedberg, 713 N.W.2d 866, 876 (2006)
48

(emphasis in original; internal quotation marks and
citations omitted).
Zhang stated in his Appellant’s Brief that “fraud
is an intentional tort of common law deceit, not a tort of
negligence for professional malpractice as written in
Appellees’ professional insurance policies.”
2.

Including fraud as a component of legal

malpractice has resulted in the exoneration of
attorneys for outright fraud, without performing
a basic preliminary factual review by either the
court or jury.
Including frauds as a component of malpractice
resulted in what occurred in the instance case and in
Nuveen Municipal Trust: The offenders were acquitted
without any form of evidential review, a form of
exoneration that could not be enjoyed by non-attorneys
who committed the same offense.
Usually, in a fraud case, the factual components
are relatively simple and would meet the lay person
standard exception, even for the malpractice
49

prosecution. The unfortunate reality is that, once a
claim cloaked as legal malpractice, the trial court will
first jump to the expert witness mandate rather than
require an evidential review first, as happened in both
Nuveen Municipal Trust and the instance case. Thus, a
viable claim of frauds filed with a legal malpractice
claim as one of the counts was dismissed solely due to a
lack of legal experts to testify for legal malpractice. No
legal experts to testify can be caused by different
reasons, and one of the reasons could be as simple as an
expert’s refusal because the fraud is not malpractice
from the start. Other reason such as the “small bar”
phenomena described in the instance case, in which no
one wants to testify against their peers for outright
frauds.
No matter what the underlying cause, the end
result is the same: An attorney who commits fraud is
exonerated differently than a non-attorney who commits
fraud.
50

Acquitting an attorney’s outright frauds
differently than frauds committed by non-attorneys
violated the Equal Protection Clause of the 14th
Amendment.
3. There is a need for this Court to resolve the
conflict among courts on whether to include
outright fraud committed by attorney into legal
malpractice and stop the constitutional violation.
There is an endemic of legal malpractice cases
filed without legal expert willing to testify, as stated in
the South Dakota Supreme Court’s opinion (fn 3,
Apn.81).
That the real number of attorneys acquitted for
their frauds just because of confusing on how to assign
outright fraud claim filed along with malpractice is
unknown. There is urgent need for this Court attention
on the matter. The unconstitutional acquittal process
enjoyed by attorneys but not others needs to be stopped
by this Court by using this case as a vehicle to prevent

51

future similar unconstitutional acts.
The widespread tolerance by attorneys of their
fellow attorneys’ frauds and the reluctance to solve
obvious problems has created the crisis of a miscarriage
of justice and has resulted in public distrust of attorneys
and even our legal system.
There were more attorneys than necessary
involved in the instance case. Yet, what Zhang saw
through the proceedings was that there was even more
deception happening, because not a single attorney was
willing to do anything regarding another attorney’s
fraud, even when the fraud was fraud on the court. If
Zhang had claimed wrongly regarding the fraud claim or
his claim was not supported by evidential facts, there
were plenty of opportunities for Respondents or other
attorneys involved in the case to make a statement that
the evidential documents that Zhang had provided were
not factual to support his fraud claim. Instead of
challenging their fellow attorneys for fraud or reporting
52

those frauds to related agencies as appropriate, the
involved attorneys chose to remain silent rather than
take on the tougher choice of confronting their peers’
frauds. During the avoidance, a new group of attorneys
exacerbated the initial fraud by further deceiving Zhang
on the subject.
Similarly, the circuit court and the South Dakota
Supreme Court chose the same wrong pathway by
avoiding any mention of the questions raised regarding
attorneys’ fraud. Both courts chose to allow the
attorneys’ summary judgment motions, which were
made purely by allegations without concrete evidential
support, while Zhang’s voluminous documents attached
in opposition were not even mentioned. The South
Dakota Supreme Court went as far as covering up
factual conflicts in James’ summary judgment motion
decision by making two separate statements, as stated
in the statement of facts. Zhang had stated those factual
conflicts in his appellant’s brief, with Judge Kean’s e53

mails quoted and the original court orders attached to
Zhang’s rehearing petition.
That the South Dakota Supreme Court could
disregard material documents already docketed with the
court to make statements like “[t]here may well be
disputed facts associated with Zhang’s divorce in the
sense that he disagrees with the testimony provided by
certain expert witnesses, or statements of his ex-wife’s
attorney, or even the determination of the facts by the
court” to deal with frauds revealed in the instance case
is troublesome. Simply put, the South Dakota Supreme
Court ruled that the extra cost to sue the defense team
and the expenses on a “sham legal process” are routine
for any divorce case. Zhang was foolish enough to spend
more money to pursue the impossible to sue the
defending team rather than file appeal as South Dakota
Supreme Court opined: “Zhang did not appeal the
court’s order, but he viewed the result as adverse”.
That the South Dakota Court made the fraud on the
54

court committed by Oliver, which was documented in
hearing and trial transcripts, vanish by such a
statement is extraordinary, as fraud on the court carries
potential disciplinary and criminal significance.
The South Dakota Supreme Court’s statements
made in contradiction to the factual evidence supplied
include the following: “[1f6] -—Zhang voluntarily
dismissed his malpractice lawsuit against Brown on
October 31, 2013; [^[36] Zhang could not have
detrimentally relied on any allegedly fraudulent
omissions by Skolnick. — (plaintiff could not prevail in
her fraud claim without demonstrating reliance upon a
misrepresentation)” showed the global attitude of the
South Dakota Supreme Court in dealing with attorneys’
fraud.
Although there is a more severe penalty than
malpractice listed for attorneys’ fraud by the law (SDCL
§ 16-19-34 (South Dakota Attorney Deceit Statutes)),
the law would be an ideologic symbol if mentioning or

55

dealing with frauds committed by attorneys had been
avoided by every attorneys that Zhang had consulted,
including by the court system in South Dakota. The
hiding fraud by the related courts had more detrimental
effects on containing attorneys’ bad behavior or general
public trust in the system.
Obviously, complicated fraud committed by
attorneys would need expert witness testimony to aid
the jury in making a determination, but the expert
witness is for the complexity of the fraud itself. To
mandate an expert witness solely because the defendant
is an attorney to raise the bar for success in prosecuting
outright fraud committed by attorney is neither
constitutionally sound nor is it the proper approach to
discourage attorneys’ fraudulent misconducts. Thus,
this Court’s attention is needed.

56

On the Second Question Raised: Fair Hearing
1. The payment and interpreter granting
procedure is not fully settled at present time.
The “Language Access in State Courts” from the
Department of Justice Civil Rights Division, issued on
September 15, 2016, requested state courts to pay for
interpreters used in civil proceeding.
In the instance case, the circuit court had asked
Petitioner to pay for the cost, and Zhang had agreed in
order to get the interpreter to start on time for any
verbal proceeding.
The person who could grant or should grant the
interpreter also not very clear as had happened in this
case or in U.S. Code § 1827 (d)(1), (j).

57

2. The trial court should at least treat all parties
equal if not facilitating Zhang’s effort to obtain
interpreter, rather than hindering the basic
fairness principle in delaying the interpreter use
without convincing excuses.
Even after Zhang had agreed to pay for all
interpreter-related costs, including potential traveling
expenses for the interpreter, Zhang’s interpreter use
was delayed and Zhang had to go through two hearings
without the help of the needed interpreter. After the
hearing, Zhang had to find out the meaning of some
English legal words that were used, without full
understanding during the hearing.
Zhang had invited all Respondents’ involvement
in the interpreter seeking and approval process while
working with the trial court.
In the instance case, fairness and equal justice
have gone out the window. Zhang had to endure
repeated delays by the court on the approval of his

58

interpreter with unsound excuses (Apn.113). Zhang had
to go through multiple final, outcome-affecting hearing
without the needed interpreter help. When Zhang asked
the South Dakota Supreme Court to resolve the
unfairness and unequal treatment that Zhang had
suffered, the court had added more insult to the injury
by stating that “[a]ny delay in obtaining approval for the
interpreter’s assistance is attributable to Zhang, not the
court.”
The fact that Petitioner lacked the capacity to
understand and to use the only weaponry — English
legal jargon - in a legal battle in a totally strange arena
to him, with his ability to fight crippled by the court, is
lacking a minimum sense of fairness or justice.
For the extreme unfair treatment and adverse
outcome of the related hearings without an interpreter’s
help, Zhang has to declare that his right to a fair
hearing provided by the Fifth Amendment is violated, as
was 28 U.S.C § 1827, although the statute is currently
59

mainly used by Limited English Proficiency (LEP) with
counsel. The criteria for using 28 U.S.C § 1827 for a pro
se litigant has not been fully discussed anywhere. The
South Dakota Supreme Court opinion in the instance
case is not consistent with the ABA’s resolution of
“Standards for Language Access in Courts” adopted in
February 2012.
The lower courts’ treatment of Petitioner is
unjustified and violated Zhang’s fair hearing right
provided by the Fifth Amendment as the United States
Court of Appeals, Ninth Circuit, had opined in a similar
case. U.S. v. Mayans, 17 F.3d 1174,1180,1181 (1994).
“Barriers to language access can interfere with
the capacity of state courts to accurately evaluate the
facts and fairly administer justice. And they can also
place unfair and unconstitutional burdens on
individuals —” the “Language Access in State Courts”
from The Department of Justice Civil Rights Division,
issued on September 15, 2016.

60

3. The Court could use the instance case as a
vehicle to lessen the confusion and injustice that
occurred in this case to eliminate potential
similar unconstitutional occurrences
In July 2008, the Brennan Center for Justice - a
public policy and law institute that focuses on issues of
democracy and justice - released an 88-page report on
an extensive study of language access in state courts.
The report, Language Access on the State Courts, notes
that about 25 million people in the US are LEP and
need an interpreter in court, and the DOJ also quoted
similar data.
The issue raised in this case that needs this
Court’s attention is that, for a pro se litigant who has to
fight the entire legal battle by himself, any deficiency in
proper language use either in understanding or
expression would cause prejudicial effects on the final
outcome of a legal action. In cases represented with
legal Counsel, the counsel can help alleviate
61

misunderstanding and confusion. In pro se situation
clearly understand every word is critical for the fairness.
Thus, it is a must, not choice if pro se litigant willing to
pay the interpreter and should grant a qualified
interpreter timely. The South Dakota Supreme Court
reasoning for the confirmation of the circuit court
delaying in the interpreter use is outrageous because
Zhang did not insist only on one interpreter but willing
to work with any qualified interpreter and had proposed
to let court or Respondents to make the choice.
CONCLUSION
The petition for a writ of certiorari should be
granted.

62

Counsels for Respondents
Attorney for Appellees Dan Rasmus & Rasmus Law
Office, LLC:
Robert D. Trzynka
Cutler Law Firm, LLP
140 North Phillips Ave., 4th Floor
P.O. Box 1400
Sioux Falls, SD 57101-1400.
Tel: (605) 335-4950
Attorneys for Appellees Tim James & James Law, PC:
Bill Fuller
Fuller & Williamson, LLP
7521 S. Louise Ave.
Sioux Falls, SD 57108
Tel: (605) 333-0003
Attorneys for Appellees William R. Skolnick, Amy D.
Joyce, and Skolnick & Shiff, P.A.:
Daniel F. Duffy Bangs,
McCullen, Butler, Foye & Simmons, LLP
P.O. Box 2670
Rapid City, SD 57709-2670
Tel: (6050 343-1040

63

